No.

IN THE
SUPREME COURT OF THE UNITED STATES

STEVEN E. WALKER,
Petitioner
vs.
UNITED STATES OF AMERICA, and All Agents,
Elected Officials, and Actors Thereof; and
THE STATE OF CALIFORNIA, and All Agents,
Elected Officials, and Actors Thereof,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Ninth Circuit
APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Steven E. Walker
6503 Roxy Lane
San Diego, California 92115
619-376-8157
waverider.ca69@yahoo.com
In Pro Se

S

LIST OF APPENDICES
APPENDIX A:
Memorandum of Decision by Ninth Circuit Court of Appeals in Steven Eric Walker
v. United State of America, et al., Case No.20-55654, affirming district court
dismissal of complaint. This is a two (2) page Appendix, dated May 25, 2021.
APPENDIX B:
Order Granting Plaintiffs Motion to proceed in forma pauperis and dismissing
complaint without prejudice for failing to state a claim upon which relief can be
granted pursuant to 28 U.S.C. §1915(e)(2)(B)(ii) in Steven Eric Walker v. United
States of America, The State of California, case No 20-cv-31 DMS(AGS), United
States District court for Southern District of California. This Appendix is five (5)
pages and is Dated March 24, 2020.
APPENDIX C:
Complaint for declaratory and injunctive relief from violation of fundamental
constitutional rights [28 U.S.C. §1331] [Federal Question Jurisdiction]
This Appendix is thirteen (13) page and is dated January 1, 2020.
APPENDIX D:
Brief of United States Senator Ted Cruz and 24 other U.S. Senators
As Amicus Curiae Supporting Petitioner in New York Rifle & Pistol
Association, inc, et al vs. Bruen, et al., United States Supreme
Court Case No.: 20-843, (Filed July 20, 2021. This Document is
23 pages in length.

APPENDIX A:
Memorandum of Decision by Ninth Circuit Court of Appeals in Steven
Eric Walker v. United State of America, et alCase No.20-55654,
affirming district court dismissal of complaint. This is a two (2) page
Appendix, dated May 25, 2021.

Case: 20-55654, 05/25/2021, ID: 12123779, DktEntry: 9-1, Page 1 of 2

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAY 25 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
STEVEN ERIC WALKER,

No. 20-55654

Plaintiff-Appellant,

D.C. No. 3:20-cv-00031 -DMSAGS

v.
UNITED STATES OF AMERICA; et al.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of California !
Dana M. Sabraw, District Judge, Presiding I
i

Submitted May 18, 2021**
Before:

CANBY, FRIEDLAND, and VANDYKE, Circuit Judges.

Steven Eric Walker appeals pro se from the district court’s judgment
dismissing his Second Amendment challenge to federal and state firearms
restrictions for persons convicted of a felony. Walker was convicted of firstdegree attempted murder in California in 1990. We have jurisdiction under 28

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 20-55654, 05/25/2021, ID: 12123779, DktEntry: 9-1, Page 2 of 2

U.S.C. § 1291. We review de novo a dismissal under 28 U.S.C.
§ 1915(e)(2)(B)(ii). Watison v. Carter, 668 F.3d 1108,1112 (9th Cir. 2012). We
affirm.
The district court properly dismissed Walker’s action because Walker failed
to allege facts sufficient to state a plausible claim. See District of Columbia v.
Heller, 554 U.S. 570, 626 (2008) (“[N]othing in our opinion should be taken to
cast doubt on longstanding prohibitions on the possession of firearms by
fe!ons[.]”); United States v. Vongxay, 594 F.3d 1111, 1117-18 (9th Cir. 2010) (the
Second Amendment permits prohibitions on firearms ownership for felons).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.

2

20-55654

Case: 20-55654, 07/19/2021, ID: 12175726, DktEntry: 10, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
JUL 19 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

STEVEN ERIC WALKER I,
Plaintiff - Appellant,
v.
UNITED STATES OF AMERICA; et
al.,

No. 20-55654
D.C. No. 3:20-cv-00031 -DMS-AGS
U.S. District Court for Southern
California, San Diego
MANDATE

Defendants - Appellees.

The judgment of this Court, entered May 25, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Rebecca Lopez
Deputy Clerk
Ninth Circuit Rule 27-7

APPENDIX B:
Order Granting Plaintiffs Motion to proceed in forma pauperis and
dismissing complaint without prejudice for failing to state a claim upon
which relief can be granted pursuant to 28 U.S.C. §1915(e)(2)(B)(ii) in
Steven Eric Walker v. United States of America, The State of California,
case No 20-cv-31 DMS(AGS), United States District court for Southern
District of California. This Appendix is five (5) pages and is Dated
March 24, 2020.

Case 3:20-cv-00031-DMS-AGS Documents Filed 04/24/20 PagelD.33 Page lot 5

1
2
3
4
5

6
7

8

UNITED STATES DISTRICT COURT

9

SOUTHERN DISTRICT OF CALIFORNIA

10
11

STEVEN ERIC WALKER,

Case No.: 20-cv-31 DMS (AGS)
Plaintiff,

12
13

v.

14

UNITED STATES OF AMERICA, THE
STATE OF CALIFORNIA, And All
Actors, Agents, and Elected Officials
Thereof, and Does 1 through 100
Respectively,

15
16
17

ORDER (1) GRANTING
PLAINTIFF’S MOTION TO
PROCEED IN FORMA PAUPERIS
AND (2) DISMISSING COMPLAINT
WITHOUT PREJUDICE FOR
FAILING TO STATE A CLAIM
UPON WHICH RELIEF CAN BE
GRANTED PURSUANT TO 28 U.S.C.
§ 1915(e)(2)(B)(ii)

Defendants.

18
19
20

21
22
23
24

25
26
27

Plaintiff, a non-prisoner proceeding pro se, has submitted a Complaint along with a
request to proceed In Forma Pauperis.
Motion to Proceed IFP
All parties instituting any civil action, suit or proceeding in a district court of the
United States, except an application for writ of habeas corpus, must pay a filing fee of
$400. See 28 U.S.C. § 1914(a). An action may proceed despite a plaintiffs failure to
prepay the entire fee only if the plaintiff is granted leave to proceed IFP pursuant to 28
U.S.C. § 1915(a). See Rodriguez v. Cook, 169 F.3d 1176, 1177 (9th Cir. 1999). This Court

28
l
20-cv-31 DMS (AGS)

Case 3:20-cv-00031-DMS-AGS Documents Filed 04/24/20 PagelD.34 Page 2 of 5

1

finds Plaintiffs affidavit of assets is sufficient to show he is unable to pay the fees or post

2

securities required to maintain this action. See Civil Local Rule 3.2(d). Accordingly, the

3

Court GRANTS Plaintiffs Motion to Proceed IFP pursuant to 28 U.S.C. § 1915(a).

4

Sua Sponte Screening per 28 U.S.C. § 1915(e)(2)

5

Notwithstanding payment of any filing fee or portion thereof, a complaint filed by

6

any person proceeding IFP pursuant to 28 U.S.C. § 1915(a) is subject to a mandatory and

7

sua sponte review and dismissal by the court to the extent it is frivolous, malicious, fails to

8

state a claim upon which relief may be granted, or seeks monetary relief from a defendant

9

immune from such relief. 28 U.S.C. § 1915(e)(2)(B); Calhoun v. Stahl, 254 F.3d 845, 845

10

(9th Cir. 2001) (“[T]he provisions of 28 U.S.C. § 1915(e)(2)(B) are not limited to

11

prisoners.”); Lopez v. Smith, 203 F.3d 1122, 1126-27 (9th Cir. 2000) (en banc). Prior to

12

its amendment by the Prison Litigation Reform Act, the former 28 U.S.C. § 1915(d)

13

permitted sua sponte dismissal of only frivolous and malicious claims. Id. at 1130. The

14

newly enacted 28 U.S.C. § 1915(e)(2), however, mandates that the court reviewing a

15

complaint filed pursuant to the IFP provisions of section 1915 make and rule on its own

16

motion to dismiss before directing that the complaint be served by the U.S. Marshal

17

pursuant to Fed. R. Civ. P. 4(c)(2). Lopez, 203 F.3d 1127 (“[Sjection 1915(e) not only

18

permits, but requires a district court to dismiss an in forma pauperis complaint that fails to

19

state a claim.”); see also Barren v. Harrington, 152 F.3d 1193,1194 (9th Cir. 1998) (noting

20

the “the language of § 1915(e)(2)(B)(ii) parallels the language of Federal Rule of Civil

21

Procedure 12(b)(6).”) i .

22
23
24
25

26
27

28

A motion to dismiss under Rule 12(b)(6) should be granted if a plaintiff s complaint fails
to contain “enough facts to state a claim to relief that is plausible.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 556 (2007). “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)
(citing Twombly, 550 U.S. at 556).
i

2

20-cv-31 DMS(AGS)

Case 3:20-cv-00031-DMS-AGS Document 3 Filed 04/24/20 PagelD.35 Page 3 of 5

1

Here, Plaintiff alleges that “state and federal laws which infringe upon his

2

fundamental rights to self-defense” are unconstitutional because they violate the Second

3

Amendment. (Compl. U 1.) He contends “all State and Federal firearms and ammunition

4

control laws since 1934, to the current date, unreasonably and unconstitutionally infringe

5

upon his fundamental and inherent right to defend himself as set forth under the Second

6

Amendment to the United States Constitution.” {Id. At 3.) Plaintiff argues that the Second

7

Amendment’s “terms, words, and limitations are clear and decisive,” and there is no

8

exclusion in the Second Amendment “which precludes him from keeping and bearing

9

firearms.” {Id. at 4.) Plaintiff notes he was convicted by a jury for the criminal offense of

10

premeditated attempted murder, with use of a firearm “in violation of California Penal

11

Code 664/187(a)/l89.” {Id. At 2.) He contends he is entitled to the right to self-defense

12

with a firearm despite his criminal history. (Compl. at 2-4.) Although Plaintiff challenges

13

the validity of all firearms laws in general, he appears to specifically seek to vindicate the

14

constitutional right for himself to bear arms, even though he is a felon. {See id. at 16,

15

“defendants do not have any legitimate or rational government interest or function in

16

making laws which infringe upon [Plaintiffs] right to keep and bear firearms in the defense

17

of his home, family, life, or community regardless of his previous status.”)

18

To do so, he cites Heller v. District of Columbia, and notes there is a “strong

19

presumption that the Second Amendment right is exercised individually and belongs to all

20

Americans.” (Compl. at 8) (quoting Heller v. District of Columbia, 128 S. Ct. 2783, 2791

21

(2008)). However, the Supreme Court in Heller, while upholding the right to bear arms

22

under the Second Amendment for the plaintiff, provided examples for how a person could

23

be “disqualified from the exercise of Second Amendment rights.” Heller v. District of

24

Columbia, 128 S.Ct. at 2822.

25

26
27

28

Like most rights, the right secured by the Second Amendment is not unlimited.
From Blackstone through the 19th-century cases, commentators and courts
routinely explained that the right was not a right to keep and carry any weapon
whatsoever in any manner whatsoever and for whatever purpose ... Although
we do not undertake an exhaustive historical analysis today of the full scope
3
20-CV-31 DMS (AGS)

Case 3:20-cv-00031-DMS-AGS Document 3 Filed 04/24/20 PagelD.36 Page 4 of 5

of the Second Amendment, nothing in our opinion should he taken to cast
doubt on the longstanding prohibitions on the possession offirearms byfelons
and the mentally ill, or laws forbidding the carrying of firearms in sensitive
places such as schools and government buildings, or laws imposing conditions
and qualifications on the commercial sale of arms.

1
2
3
4
5

Heller, 128 S.Ct. at 2816-2817 (emphasis added) (internal citations omitted).

6

Applying this reasoning, the Ninth Circuit concluded 18 U.S.C. § 922(g), a statute

7

8
9
10
11
12
13
14

15
16

barring felons from possessing firearms, is constitutional. United States v. Vongxay, 594
F.3d 1111, 1115 (9th Cir. 2010), cert, denied Vongxay v. United States, 562 U.S. 921
(2010). The Ninth Circuit found this conclusion to be aligned with case law, as well as the
explicit purpose of the Second Amendment. Idsee also United States v. Smith, 329 Fd.
Appx. 109, 111 (9th Cir. 2009) (“Heller did not disturb Lewis's narrow holding—that
felons have no constitutional right to possess firearms.”). Moreover, the Ninth Circuit has
held that convicted felons do not have the right to possess firearms under Heller. See
United States v. Gilbert, 286 Fed. Appx. 383, 386 (9th Cir. 2008), cert denied Gilbert v.
United States, 555 U.S. 1038 (2008)
Here, the crux of Plaintiffs complaint is that he is improperly denied the right to

17
18
19
20

21
22
23
24
25

26
27

bear arms under the Second Amendment because of his status as a felon, and that convicted
felons have the right to possess firearms.

Because the Ninth Circuit and the Supreme

Court have both recognized the validity of laws curtailing the right of a felon to possess
firearms, his complaint fails to state a claim upon which relief can be granted.
III
III
III
III
III
III

28
4
20-CV-31 DMS (AGS)

Case 3:20-cv-00031-DMS-AGS Document 3 Filed 04/24/20 PagelD.37 Page 5 of 5

1

Conclusion and Order

2

For these reasons, IT IS HEREBY ORDERED that Plaintiffs Motion to Proceec

3

IFP is GRANTED and the Complaint is DISMISSED without prejudice for failure to state

4

a claim.

5

6
7
8

IT IS SO ORDERED.
Dated: April 24, 2020
Hon. Dana M. Sabraw
United States District Judge

9
10
11
12
13
14
15
16
17
18

19
20
21
22
23
24

25
26
27
28
5
20-cv-31 DMS (AGS)

APPENDIX C:
Complaint for declaratory and injunctive relief from violation of
fundamental constitutional rights [28 U.S.C. §1331]
[Federal Question Jurisdiction]
This Appendix is thirteen (13) page and is dated January 1, 2020.

Steven E. Walker
6503 Roxy Lane
San Diego, CA. 92115
(619)376-8157
wavcnder.ca69@vuhoo.rnm

f\

v/hj

Acting In Pro Se
IN THE DISTRICT COURT OF THE UNITED STATES OF AMERICA
IN AND FOR THE SOUTHERN DISTRICT OF CALIFORNIA
STEVEN ERIC WALKER,
Plaintiff in Pro Se
Vs.

)

)

)
)

XU &i/oC (

ws~

) COMPLAINT FOR DECLARATORY
) AND INJUNCTIVE RELIEF FROM
UNITED STATES OF AMERICA,
) VIOLATION OF FUNDAMENTAL
The STATE OF CALIFORNIA, And
) CONSTITUTIONAL RIGHTS
Ail Actors, Agents, and Elected Officials )
Thereof; And Does 1 Through 100
) 28 U.S.C. Section 1331
Respectively.
) (Federal Question Jurisdiction)
Defendants.

)
)

COMPLAINT FOR DECLARATORY AND INJUNCTIVE RELIEF

1.

STEVEN ERIC WALKER (hereafter Walker), is the PLAINTIFF and is acting in

Pro Se. Walker raises a federal question alleging that he has standing to bring this case. In that,
this case states an actual controversy between him and the Governments of the STATE OF
CALIFORNIA, and UNITED STATES OF AMERICA (hereafter “Defendants”) concerning the
constitutionality of state and federal laws which infringe upon his fundamental rights to
self-defense, in violation of the Second Amendment to the United States Constitution. Walker

1

tp

'J>

farther alleges that these anti-self-defense laws are unconstitutional, in that they are not
necessary, nor proper, under the Constitution; and farther infringe upon national security and
public safety interests as necessitated by the intent and meaning of the Second Amendment to the
United States Constitution.1
2.

Walker generally alleges and contends that this case also creates a controversy

concerning the powers of Defendants’, its actors, agents and elected officials under the
Constitution of the United States of America, as it relates to a violation of sworn oaths to uphold,
protect, and defend sard Constitution. In that, said government actors, agents and elected officials
are advocating the overthrow of the American Constitutional System when unfaithfully creating,
codifying and enforcing laws, policies and procedures which infringe upon any law abiding
citizens rights to self-defense and firearm possession as secured under the Second Amendment to
the United States Constitution. See United States Constitution, Article VI, cl. 2}
I

Specific Facts and Alleffatmns
3.

Walker states that on August 9,1990, he was convicted by a jury of the criminal

offense of Premeditated Attempted Murder, with use of a firearm in violation of California Penal
Code section 664/187(a)/189.3

The Second Amendment states: “A well regulated Militia, being necessary to the security ofa
free state, the nght of the People to keep and bear Arms, shall not be infringed.” (Italics added for
emphasis.) It is farther alleged and contended that based on the history of the right to self defense and the
minders intentions, the Second Amendment is an individual right which is absolute, and cannot be
limited by government. Otherwise, the term “shall not be infringed-’ becomes dispensable and subjected
to arbitrary governmental and majoritarian fancies.
2

See also 5 U.S.C. sections 3331 and 7311.
See California Superior Court, County of San Diego, Case number CR113777
2

4.

Walker states that on October 16,1990 he was sentenced to

serve a sentence of

life with the possibility ofparole on the attempted murder charge and 3 years on the assault.
Walker served over 22.6 years in prison and was found suitable for release upon parole on June
26,2012. Walker was released from prison on October 30,2012 and was discharged from State
custody and constraint October 30,2015. Walker states he was discharged due to the fact that he
no longer posed an unreasonable risk ofdanger to society.4
5.

Walker states that he has not committed a serious or major criminal offense prior

or subsequent to the date of April 27, 1990.
6.

Walker states that he has been a law abiding citizen for over 30 years.

7.

Walker states generally and specifically that he is entitled to full citizenship

status which includes any and all rights, privileges and immunities established under and as
further set forth in the Constitution of the United States of America. Walker further states that he
has the right to vote; the right to free speech, religion and assembly; as well as the right to
petition for a redress of grievances. He also has the right to privacy, acquire property and the
right to protect said property including the right to defend his home, himself, his family,
community and country. Also see California Constitution Article 1, section l.5

Basically, Walker has demonstrated that he can function in society because he no longer
constitutes an unreasonable risk of danger. Therefore, Walker is, in essence, a law-abiding citizen who
has earned his place back into society. As such, under the Privileges and Immunities Clause of the
Fourteenth Amendment he is entitled to full citizenship status, which includes Second Amendment
protections.
Calif. Const. Art. 1, sec 1 states: “Allpeople are by nature free and independent and have
inalienable rights. Among these are enjoying and defending life and liberty, acquiring, possessing, and
protectingproperty, andpursuing and obtaining safety, happiness, andprivacy” (Emphasis added in
Italics.)
3

8.

Walker states specifically that defendants firearms and ammunition control la
ws

unconstitutionally infringe upon his fundamental right to defend himself.6
9.

Walker states that the Second Amendment clearly sets forth a strict limitatio

n on

Government’s involvement in (he right of the People to defend themselves. Specifically, the
defendants “shall not infringe” upon the right to keep and bear arms.
10.

Walker states that the Second Amendment’s terms, words, and limitations are

clear and decisive. Specifically, there is not any exclusion built into the Second Amendment
which precludes him from keeping and bearing firearms. It is further alleged that the
government, its agents, officials and elected representatives have no authority under the
Constitution and the Second Amendment to enact, create, legislate or enforce any law, rule,
policy or procedure which infringes upon any law abiding person from keeping and bearing

any

type of arms or instruments which can be used in the defense of one’s self, one’s property, and
one’s community. Specifically, it is alleged that any current law, rule, procedure, or policy which
sets forth any type of prohibition excluding Walker from keeping and bearing arms is
unconstitutional under the Second Amendment.

It is contended that California Penal Code sections 16000-34370, infringe upon Walker’s rights to
interests as outlined
under the intent of the Second Amendment and California Constitution Article 1
, Section 1.
it is further contended that the founders and drafters of the Bill of Rights firmly believed that the
andwiir^
”** “
** freeman’s Possession °f <™s as well as his ability
and wi mgness to defend himself and his society. This was “the bedrock, the ‘palladium’ of republics
2n
A ^
°PC’ ^ Ide0l0g‘Cal °ngmS °ftke ^nd Amendment, 69 j
m
612 (1982). .Accordingly, National Security is not only about the government protecting its citizens
&«tod, National Security, or the Security of a Free State, is more concerned with the Citizens ability to
protect themselves and society from fonegn or domestic tyranny, overbearing governments, and defend
against other corrupt or criminal influences and bodies. Id. at 613-614

Claim I—Unennstitiitmiifll T.awc
State And Federal Firearm Control Laws Violate The
Intent, Purpose And Meaning Of The Second
Amendment When Those Laws Are Designed And
Used To Infringe Upon A Law Abiding Citizen’s
Fundamental Right To Defend and Protect Themselves
and Society.
11.

Walker hereby incorporates and alleges, generally and specifically, paragraphs 1

through 10 above, as if the same were fully set forth and alleged herein.
12.

Walker generally and specifically alleges that the National Fireanns Act (NFA)7

of 1934, as it was enacted and is presently being enforced against him by defendants is
unconstitutional under the intent and meaning of the Second Amendment.
13.

Walker generally and specifically alleges that the National Fireanns Act (NFA) of

1934, as it was enacted and is presently being enforced against him by defendants is
unconstitutional under the intent and meaning of Article VI, cl. 2, to the United States
Constitution, in that said law was not made in pursuance of the Second Amendment.
14.

Walker generally and specifically alleges that the Federal Firearms Act (FFA) of

1938, as it was enacted and is presently being enforced against him by defendants is
unconstitutional under the intent and meaning of the Second Amendment.
15.

Walker generally and specifically alleges that the Federal Fireanns Act (FFA) of

1938, as it was enacted and is presently being enforced against him by defendants is

See 26 U.S.C. sections 5841 through 5872 of Chapter 53.
5

unconstitutional under the intent and meaning ofArticle VI, cl. 2, to the United States
Constitution in that said law was not made in pursuance of the Second Amendment.
16.

Walker generally and specifically contends that the Gun Control Act

of 1968

(GCA)8, as it was enacted, and any and all past or current State or Federal laws, rules, or
policies derived therefrom, including California Penal Code sections 16000 through 34370,
which are presently being enforced against him by defendants, are unconstitutional under the
intent and meaning of the Second Amendment.
17.

Walker generally and specifically contends that the Gun Control Act of 1968

(GCA), as it was enacted and any or all past or current State or Federal laws, rules, or policies
derived therefrom, including California Penal Code sections 16000 through 34370, which are
presently being enforced against him by defendants, are unconstitutional under the intent and
meaning of Article VT, cl. 2, to the United States Constitution in that said laws were not maHp in
pursuance of the Second Amendment.
18.

Walker states that prior to the passage of the GCA of 1968, and California Penal

Code sections 16000 through 34370, handguns, rifles, shotguns, and ammunition

were

commonly sold over the counter and through mail-order catalogs and magazines to just about
any adult anywhere in the nation.
19.

Walker generally and specifically contends that all State or Federal fir
earm

control laws, acts, or policies created, legislated or used to enforce, control or infringe upon his
Second Amendment right to self-defense, including California Penal Code sections 16000
through 34370, are unconstitutional under the intent and meaning of Article VI, cl. 2, to the

See 18 U.S.C. sections 921 through 931 of Chapter 44.
6

United States Constitution, in that said laws were not made in pursuance of the Second
Amendment.
20.

Walker generally and specifically contends that all State or Federal firearm

control laws, acts, or policies created, legislated or used to enforce, control or infringe upon his
Second Amendment right to self-defense, including California Penal Code sections 16000
through 34370 are unconstitutional.
21.

Walker generally and specifically alleges that all State and Federal laws, rules,

policies and procedures which are presently enforced and which require him to register a firearm
or anytype of arms, or restricts the purchase, sale, or manufacture of any arms which he can use
for individual and public defense is unconstitutional under the intent and meaning of the Second
Amendment.
22.

Walker generally and specifically contends that any and all State and Federal

laws, rules, policies and procedures which are presently enforced and which require him to
register a firearm or anytype of arms, or restricts the purchase, sale, or manufacture of any arms
which can be used for individual and public defense is unconstitutional under the intent and
meaning of Article VT, cl. 2, to the United States Constitution, in that said laws were not made in
pursuance of the Second Amendment.
23.

Walker generally and specifically alleges that any and all State and Federal laws,

rules, policies and procedures which are presently enforced and which require him to pass a
background check in order to purchase, procure, keep or bear any type of Arm for his defense is
unconstitutional under the intent and meaning of the Second Amendment.

7

24.

Walker generally and specifically alleges that any and all State and Federal laws,

rules, policies and procedures which are presently enforced and which require him to pass a
background check m order to purchase, procure, keep or bear any type of arm for his defense is
unconstitutional under the intent and meaning of Article VI, cl. 2, to the United States
Constitution, in that said laws were not made in pursuance of the Second Amendment.
25.

Walker generally and specifically contends that any and all State and Federal

laws, rules, policies and procedures which are presently enforced and which require him to pass
a background check in order to purchase, procure, keep or bear any type of arms, including
ammunition, body armour, or military grade Arms for his defense, or for the defense of the
community is unconstitutional under the intent and meaning of the Second Amendment and
Article VI, cl. 2, to the United States Constitution in that said laws were not made in pursuance
of the Second Amendment.
26.

Walker generally and specifically alleges that any and all State and Federal

anti-self-defense legislation, firearm control legislation, or firearm carry restrictions do not
prevent or deter criminals from procuring arms to commit crimes, but instead restrict and
infringe upon his fundamental right to self-defense and to defend the public.
27.

Walker generally and specifically alleges that since the enactment and

enforcement of the NFA, FFA, GCA, California Penal Code section 16000-34270, and State
firearms control legislation, there has been an average of sixteen-thousand murders committed
in the United States during any given year.9 It is further alleged that those firearm and

It is generally aUeged, when compared to the overall population of the United States,
approximately 300 million people, the murder rate nation wide is less than 0.01 %. As such, there is not a
8

self-defense infringement laws do not

prevent crime, murder, or injuiy. Instead, these current

anti self-defense laws infringe upon his fundamental right to adequate and efficient self
protection and further threaten national security and public safety interests.10
28.

Walker states that a 1993 nationwide survey found over the previous five year

period, that at least 3.5% of households had members who had used

a gun for self-protection or

for the protection of others. It is further alleged that such trends in self-defense apply to current
self-protection practices of law abiding citizens.11
29.

Walker states that there are roughly 5.9 million violent crimes committed in the

United States during any given year, since the passage of NFA, FFA, GCA, and State gun control
laws. Most of these crimes include simple/aggravated assaults, robberies, sexual assaults,

rapes,

and murders. It is further alleged that of these crimes an average of 10% were committed by
offenders visibly armed with a gun.12 See also Gun Control
30.

Walker generally alleges that on average law abiding civilians used guns to

defend themselves and others ffom crime approximately 989,883 times per year. It is also alleged
and contended that firearms possessed by law abiding People prevent more crime, than the
presence of law enforcement See Gun Control

legitimate government interest in firearm control or restriction laws, as they apply to Walker. These facts
turther demonstrate that firearms control measures do not curb or curtail violence but enhance it.
See https://www.justfacts.eom/guncontroI.asp#constitution (hereafter “Gun Control”)
Ibid.

£#§=§§!gssss
9

31.

Walker states that in 1994 the Center for Disease Control & Prevention found that

on average Law-abiding Americans13 use guns to frighten away intruders about 498,000 times;
and that defensive use of guns by crime victims is a common occurrence in the United States.
Further, when a gun was used by a crime victim to prevent a crime, in the sense of attacking or
threatening an offender, there were lower injury rates among gun-using crime victims, as
compared with victims who used other self-protective strategies. Ibid.
II.

Request for Relief
32.

Walker hereby incorporates and alleges, generally and specifically, paragraphs 1

through 31 above, as if the same were fully set forth and alleged herein.
33.

Walker is requesting the Court to interpret and construe the Second Amendment

as intended by the clear meaning of its words, as currently expressed within that Constitutional
Amendment.
34.

Walker reserves the right to amend this Complaint, to add or retract claims, facts,

allegations, plaintiffs, or defendants at any time during the course of these proceedings, or upon
receiving new information or relief.
35.

Walker seeks declaratory relief as follows:
1)

A declaration of rights that all State and Federal laws, rules, policies and

procedures which have been enacted and are currently enforced, which restrict and
infringe upon Mr. Walker’s Second Amendment right to keep and bear arms, are
unconstitutional as applied to him;

It is generally alleged that there is not any definition as to what constitutes a “law-abiding”
American, or how long must a citizen be law-abiding in order to keep or bear a firearm In addition, the
Second Amendment does not expressly or by implication set forth criteria or definitions as to who or what
type of Citizen can keep or bear a firearm, nor does it set forth any limits on age, status or social standing
10

2)

A declaration of rights that all State and Federal laws, rules, policies and

procedures that are currently enacted and enforced, which restrict and infringe upon Mr.
Walker’s right to self-defense as necessitated under the Second Amendment’s right to
keep and bear arms, are unconstitutional as applied to him3)

A declaration of rights that all State and Federal laws, rules, policies and

procedures that have been enacted and enforced, which restrict or infringe upon Mr.
Walker’s Second Amendment right to keep and bear arms, are unconstitutional under
Article VI, cl. 2, of the United States Constitution, where those laws, rules, policies and
procedures were not created, enacted, and are not being enforced, pursuant to the Second
Amendment of the United States Constitution;
4)

A declaration of rights that all State and Federal laws, rules, policies and

procedures that are currently enacted and enforced, which restrict and infringe upon Mr.
Walker’s right to self-defense as necessitated under the Second Amendment’s right to
keep and bear arms, are unconstitutional under Article VI, cl. 2, of the United States
Constitution, where those laws, rules, policies and procedures were not created, enacted,
and are not being enforced, pursuant to the Second Amendment of the United States
Constitution;
5)

A declaration of rights that any and all State and Federal laws, rules and

policies which restrict, infringe upon, curtail and encroach upon a law-abiding citizen’s
rights to keep and bear arms, purchase arms, ammunition, which are militia or military
type, style or grade, design, or make, are unconstitutional under the Second Amendment’s
rights to establish a well regulated militia and for the People to keep and bear arms;
6)

A declaration of rights that any and all State and Federal laws, rules and

policies which restrict, infringe upon, curtail and encroach upon a law-abiding citizen’s
rights to keep and bear arms, purchase arms, ammunition, which are militia or military
type, style or grade, design, or make, are unconstitutional under Article VI. cl. 2, of the
United States Constitution where those laws, rules and policies were not created, enacted
and are not being enforced pursuant to the Second Amendment’s rights to establish a well
regulated militia, and for the People to keep and bear arms;

7)

An order declaring that the tenn “ A well regulated Militia” as set forth in
the Second Amendment means a well maintained and supplied Militia of armed
aw-abiding citizens;
8)

An order declaring that the terms “the right of the People to keep and bear

arms,” as set forth in the Second Amendment means that the People have an inherent
right to keep and bear any and all type of arms which are “necessary to the security of a
free state”; and that such terms pursuant to the Second Amendment include the inherent
right to individual self-defense, to the defense of the public, and community; as well as to
the United States ofAmerica; and that the terms “shall not be infringed” as declared by
the Second Amendment creates an uncompromising limitation on government
involvement in creating, enacting and enforcing laws, rules and policies which are
antithetical to the meaning, intention and purpose of the Second Amendment; and further
declare and order that the only permissible involvement Defendants have under the
Second Amendment and Article VI, cl. 2, are to establish and provide laws, rules, and
policies which carry into effect the above stated terms and conditions;
9)

An order enjoining the defendants, it actors, agents and elected officials

from enforcing, enacting and creating any and all laws, rules, and policies which are not
in accord with the meaning, terms and purpose of the Second Amendment;
10)

An order enjoining defendants’ its agents, actors and elected officials from

any further creation, enactment or enforcement of any law, rule or policy which infringes
upon, restricts or limits Mr. Walker’s rights to self defense secured pursuant to the
purpose and meaning of the Second Amendment’s terms “the right of the People to keep
and bear arms, shall not be infringed.”

in.

Declaration of Plainfjffr
36.

Walker hereby incorporates and alleges, generally and specifically, paragraphs 1

through 35 above, as if the same were folly set forth and alleged herein; and hereby states that;

12

I, Steven Enc Walker, hereby declare and maintain that the above stated facts

, and

allegations are true and correct to the best of my knowledge, based on information and belief;
I further declare that the laws, rules, and policies

currently being enforced by defendants,

its actors, agents and elected officials violate my rights under the Second Amendment to the
United States Constitution. Specifically, I cannot currently, legally purchase, keep or bear any
type of effective arms, firearms, or means to defend myself, my family, my home, my
communrty or my country, from attack, assault, tyranny or terrorist activity; I further declare
and maintain that I am and have been a law-abiding citizen of die State of Califomi

a and the

United States of America. That as a law-abiding citizen, I have the right to vote, speak

, exercise

a religion, privacy, acquire property, defend myself and family, purchase or rent a home or
vehicle, to walk and travel within the borders of the United States, partake in commerce, and
enjoy life, liberty and the pursuit of happiness, as well as enjoy everything which is

necessary to

a free state of mind, body and being, including my own safety.
I declare under penalty of peq'ury that the foregoing is true and correct to the best

of my

knowledge, information, and belief. EXECUTED this P day of January in the year 2020.

Qi

(

A

By /ft
STEVEN E. WALKER
PlaintiffrPetitioner
Acting In Pro Se

13

APPENDIX D:
Brief of United States Senator Ted Cruz and 24 other U.S. Senators
As Amicus Curiae Supporting Petitioner in New York Rifle & Pistol
Association, inc, et al vs. Bruen, et al., United States Supreme
Court Case No.: 20-843, (Filed July 20, 2021. This Document is
23 pages in length.

No. 20-843
(31*1 t\\z Supreme (Emtrt of i\\t JHmieh JiStaiee
New York State Rifle & Pistol Association, Inc.,
et AL.,
Petitioners,
v.
Kevin P. Bruen, in His Official Capacity as
Superintendent of New York State Police, et al. ,
Respondents.
On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit
BRIEF OF UNITED STATES SENATOR
TED CRUZ AND 24 OTHER U.S. SENATORS AS
AMICI CURIAE SUPPORTING PETITIONERS
Gene C. Schaerr
H. Christopher Bartolomucci
Counsel of Record
Riddhi Dasgupta
Schaerr I Jaffe LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Amici Curiae
July 20,2021

I

I

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

INTERESTS OF AMICI.

1

INTRODUCTION AND SUMMARY OF
ARGUMENT...............................................

2

ARGUMENT

4

I.

The Second and Fourteenth Amendments
Already Weighed and Resolved the
Competing Risks and Benefits of the
People Keeping and Bearing Arms.............

4

II. Any Limitations on the Scope of the
People’s Right to Keep and Bear Arms
Cannot Override or Reweigh Choices
Already Made by the Constitution.......

13

CONCLUSION

15

11

TABLE OF AUTHORITIES
Cases
Caetano v. Mass., 577 U.S. 411 (2016)

13

District of Columbia i>. Heller,
554 U.S. 570 (2008).............................

4, 6, 7,14

Kanter v. Barr,
919 F.3d 437 (7th Cir. 2019).............

13

Luis v. United States, 136 S. Ct. 1083 (2016) ... 11, 12
Moore v. Madigan, 702 F.3d 933 (7th Cir. 2012) .... 11
Nebraska Press Ass’n v. Stuart,
427 U.S. 539 (1976)..................................

5

Pub. Citizen v. U.S. Dep't of Justice,
491 U.S. 440 (1989)..................................

12

Weaver v. Ward, 80 Eng. Rep. 284 (1616)

7

Wrenn v. District of Columbia,
864 F.3d 650 (D.C. Cir. 2017).................

11

Other Authorities
John Adams, Argument for the Defense: 3-4
Dec. 1770 in 3 LEGAL PAPERS OF JOHN ADAMS
(L. Kinvin Wroth & Hiller B. Zobel eds., 1965)

8

Dan Atkinson, Police: Man fires gun to break
up robbery in Franklin Park, NEWS 7 BOSTON
(May 9,2021).........................................................

8

l William Blackstone, Commentaries...........

5

Ill

TABLE OF AUTHORITIES (CONT’D)
Other Authorities (cont’d)
Jud Campbell, Judicial Review and the
Enumeration of Rights, 15 Geo. J.L. & PUB.
POL’Y 568 (2017)........................................................

5

CBS 17 Digital Desk, Man shoots, kills thief
during attempted robbery in Durham, police say,
CBS17.COM (Jan. 9, 2021, 10:03 PM)....................

9

Clayton E. Cramer, Armed America: The
Remarkable Story of How and Why Guns
Became as American as Apple Pie (2006)...........

8

Clayton E. Cramer & Joseph Edward Olson,
Pistols, Crime, and Public: Safety in Early
America, 44 Willamette L. REV. 699 (2008)...... 6,7
Michael Dalton, The Countrey Justice:
Containing the Practices of the Justices
of the Peace Out of Their Sessions (London,
Printed for the Societie of Stationers 1619).........

6

Travis Fedschun & Bradford Betz, Texas
Church Shooting: Gunman Kills 2, ‘Heroic’
Congregants Take Down Shooter, FOX NEWS
(Dec. 29, 2019)...........................................................

9

Dorian Geiger, Elderly Florida Man Shot
Intruder To Death After Suspect Smashed
Through Glass Door And Began Attacking
His Wife, Authorities Say, OXYGEN.COM
(May 29, 2020, 8:48 AM).......................................... 10

IV

TABLE OF AUTHORITIES (CONT’D)
Other Authorities (cont’d)
Addie Haney, Armed citizen detains suspect
after attempted robbery, shooting at Colony
Square Chick-fil-A, police say, 11ALIVE.COM
(Mar. 8, 2021, 4:30 PM).......................................... 8, 9
The Heritage Foundation, Defensive Gun
Uses in the U.S., HERITAGE.ORG (Apr. 13, 2020,
updated July 16, 2021)............................................ 8,9
Hasan Karim, Report: Clerk in Springfield
fires shots at would-be-robber, SPRINGFIELD
News-Sun (Feb. 4, 2021)........................................

9

Dan Koob, Carjacking Victim Shoots Suspect
in Head in Center City, Philadelphia Police Say,
CBS3 PHILLY (Feb. 16, 2021, 9:15 AM)...........

9

Alison L. LaCroix, To Gain the Whole World
and Lose His Own Soul: Nineteenth-Century
American Dueling as Public Law and Private
Code, 33 HofstraL. REV. 501 (2004)..............

7

Ryan Laughlin, Shots fly as father, son nearly
robbed at ATM on Albuquerque’s West Side,
KOB4 (May 17, 2021, 5:15 PM, updated
May 18, 2021, 6:39 AM)...................................

9, 10

Letters from the Federal Farmer VI (1787),
reprinted in 20 The DOCUMENTARY HISTORY
of the Ratification of the Constitution
(John P. Kaminski, et al. eds., 2004).............

5

V

TABLE OF AUTHORITIES (cont’d)
Other Authorities (cont’d)
2 John Locke, Two Treatises of Government
§ 87 (Peter Laslett rev. ed., Cambridge Univ.
Press 1963) (1698).................................................. 4,5
The Proceedings of the Old Bailey, Trial of John
Poultney, July 1682, OLD BAILEY PROCEEDINGS
Online......................................................................

8

The Proceedings of the Old Bailey, Trial of
Richard Cooper, Apr. 1731, OLD BAILEY
Proceedings Online..............................................

7

Ashley Remkus, No charges filed in deadly
shooting in Madison County, AL.COM
(May 4, 2020)...........................................................

10

Roger Saadia & Moshe Schein, Debridement of
Gunshot Wounds: Semantics and Surgery,
24 World J. Surgery 1146 (2000)......................

12

Renatta Signorini, Teen charged as adult in
Jeannette shooting; 2nd shooter acted in
defense, DA says, TribLIVE.COM
(Apr. 23, 2021,12:04 PM)......................................

10

Julius S. Waterman, Thomas Jefferson and
Blackstone’s Commentaries, in Essays in The
History of Early American Law
(David H. Flaherty ed., 1969)...............................

5

John Winthrop, Winthrop’s Journal (1825)....

8

VI

TABLE OF AUTHORITIES (CONT’D)
Other Authorities (cont’d)
John Winthrop, Winthrop’s Journal: History
of New England 1630-1649 (James Kendall
Hosmer ed., Charles Scribner’s Sons 1908)......

7

INTERESTS OF AMICI1
Amici are United States Senators:
Ted Cruz
Mitch McConnell
John Barrasso
Marsha Blackburn
John Boozman
Mike Braun
John Cornyn
Tom Cotton
Kevin Cramer
Mike Crapo
Steve Daines
Josh Hawley
John Hoeven
Cindy Hyde-Smith
Jim Inhofe
Ron Johnson
James Lankford
Mike Lee
Cynthia Lummis
Roger Marshall
Jerry Moran
Jim Risch
Marco Rubio
Rick Scott
Thom Tillis

1 All parties have consented to the filing of this brief. No counsel
for a party authored it in whole or in part, nor did any person or
entity, other than Amici and their counsel, make a monetary
contribution to fund its preparation or submission.

2
Amici are deeply committed to the United States
Constitution, its foundational principle of limited
government, and its guarantees of fundamental
individual rights. One of the most important of these
rights is the Second Amendment’s guarantee of the
right to keep and bear arms. That constitutional right
implements the historic right of armed defense of self,
family, state, and nation, as well as the right to use
arms for other lawful purposes. Amici have sworn to
“support and defend the Constitution,” and they have
an abiding interest in conveying their views in support
of the Second Amendment against depredations by
any or all of the Legislative, Executive, or Judicial
branches of the federal or state governments.
INTRODUCTION AND
SUMMARY OF ARGUMENT
The inclusion of an individual right in the
Constitution reflects the Framers’ determination not
only that the benefits of guaranteeing that right
outweigh the costs, but that no future legislature—
including Congress—should have the ability to
second-guess that determination.
The Court of
Appeals
below
nevertheless
balanced
the
constitutionally-guaranteed right to keep and bear
arms against legislatively asserted interests as if the
two were comparable in either weight or kind. They
are not, and treating them as such was error.
The right to keep and bear arms was enshrined in
the Bill of Rights and later incorporated against the
states through the Fourteenth Amendment. As a
right, guaranteed to “the people,” any person within

3
its ambit may exercise the right without permission,
justification, or defense. And no legislature may
transform the right into a mere privilege by
reweighing or diminishing the policy considerations
already resolved by the Framers.
Rather, any
purported limitations on the right must be based on
the history and contemporaneous understandings of
the scope of the Second and Fourteenth Amendments.
Amici accordingly agree with petitioners that the
State of New York’s regulations on personal carry of
arms for self-defense violate the Second Amendment.
They nevertheless write separately to emphasize that
legislators—whether in Albany or Washington, D.C.—
have neither the power nor the authority to secondguess the policy judgements made by the Framers and
enshrined in the Constitution. The competing risks
and benefits of firearms were certainly no mystery to
the Framers and ratifiers. Yet they still chose to
enshrine the right to keep and bear arms in the
Constitution, and later chose to incorporate that right
against the states. Their decision to guarantee the
right of the people to keep and bear arms after
weighing all the policy considerations is definitive.
Thus, while specific subsets of persons might fall
beyond the general policy balance in the Constitution
itself—such as dangerous criminals—any prohibition
would have to distinguish such restricted class from
the mass of “the people” in general. Any justification
for restricting carry that applies equally to all is
contrary to the Constitution and to the very notion of
a right of the people.

4
ARGUMENT
I.

The Second and Fourteenth Amendments
Already Weighed and Resolved the
Competing Risks and Benefits of the
People Keeping and Bearing Arms.

In District of Columbia v. Heller, this Court said
what should be obvious about constitutional rights:
“The very enumeration of the right takes out of the
hands of government—even the Third Branch of
Government—the power to decide on a case-by-case
basis whether the right is really worth insisting upon.”
554 U.S. 570, 634 (2008). “The enshrinement of
constitutional rights necessarily takes certain policy
choices off the table.” Id. at 636.
The text of the Second Amendment—we leave the
inevitable rehashing of historical meaning and
practice to others—makes clear that the Framers took
at least three policy choices off the table:
1. The Amendment enshrines a “right,” not a mere
privilege or suggestion subject to legislative
revision or retraction.
2. It is a right that belongs to “the people” generally,
not merely to some select few.
3. The right is not merely to “keep” arms, but to
“bear” them as well.
By making the bearing of arms a “right,” the
Framers made the policy choice to relieve “the people”
of any obligation to justify their exercise of that right.
By definition, a person exercising a right does not need
permission from the state. See 2 JOHN LOCKE, Two
Treatises of Government § 87 (Peter Laslett rev.

5
ed., Cambridge Univ. Press 1963) (1698); 1 WILLIAM
Blackstone, COMMENTARIES *123;2 Nebraska Press
Ass’n V. Stuart, 427 U.S. 539, 604 n.32 (1976)
(Brennan, J., concurring) (emphasizing that
longstanding constitutional doctrine effectively places
an absolute prohibition on prior restraints).
Specifically, at the time of the ratification of the
Second or of the Fourteenth Amendment, the right to
bear arms was “enforceable in court” and occupied “the
status of supreme law.” Jud Campbell, Judicial
Review and the Enumeration of Rights, 15 GEO. J.L. &
PUB. POL*Y 568, 576 (2017). Most importantly, that
right could not “be altered or abolished by the ordinary
laws.” Letters from the Federal Farmer VI (1787),
reprinted in 20 THE DOCUMENTARY HISTORY OF THE
Ratification of the Constitution 979,983-84 (John
P. Kaminski, et al. eds., 2004).
Similarly, by guaranteeing the right to “the people”
generally—something that is equally true of other
individual rights that the Constitution protects, such
as those guaranteed by the First, Fourth, and Ninth
Amendments—the Framers made the choice to grant
the right to every person included in “the people.” Any
effort at excluding one or more classes of persons must
therefore be based on something that distinguishes
them from the “people.”

2 Blackstone’s Commentaries were quite popular in colonial
America and were regularly consulted by everyday subjects of the
Crown as well as justices of the peace. Julius S. Waterman,
Thomas Jefferson and Blackstone’s Commentaries, in ESSAYS IN
The History of Early American Law, 451, 454 (David H.
Flaherty ed., 1969).

6

Finally, the inclusion of the right to “bear” arms, as
well as to “keep” them, reflects a decision by the
Framers and ratifiers that the right applies both at
home and out in the world. Each of those choices
reflect a balancing of the costs and benefits and a
decision that the benefits outweighed the costs.
When the Framers balanced the costs and benefits
of guaranteeing the right to keep and bear arms, they
understood the dangers of firearms. In 1619, the
English barrister and legal thinker Michael Dalton
updated his treatise’s definition of “dangerous
weapons” with the word “Gunn” so that the definition
went on to read: “Gunns, Daggs, or Pistols.” MICHAEL
Dalton, The Countrey Justice: Containing the
Practices of the Justices of the Peace Out of
Their SESSIONS 31 (London, Printed for the Societie of
Stationers 1619). And a snap-shot survey spanning
1674-1789 analyzed over 1,500 cases from London’s
Old Bailey, and its data suggests that guns were
employed for either criminal enterprises or lawful
uses (such as self-defense). See Clayton E. Cramer &
Joseph Edward Olson, Pistols, Crime, and Public:
Safety in Early America, 44 WILLAMETTE L. REV. 699,
715 (2008).
Indeed, this Court has recognized that the right to
keep and bear arms contemplates confrontation and
potential danger. As Heller articulated, to ‘"bear”
means to “wear” or to “carry *** upon the person or in
the clothing or in a pocket, for the purpose
of being
armed and ready for offensive or defensive action in a
case of conflict with another person.” 554 U.S. at 584
(cleaned up). To “bear” something means to carry it;
and “[w]hen used with ‘arms, > *** the term has a

7
meaning that refers to carrying for a particular
purpose—confrontation.” Id.
Moreover, because gun violence was common in
England and in the American colonies during the
seventeenth and eighteenth centuries, the Framers
understood that some individuals would abuse the
right to keep and bear arms by using firearms for
illicit purposes. See Cramer & Olson, supra at 712
n.71 (citing JOHN WlNTHROP, WlNTHROP’S JOURNAL:
History of New England 1630-1649, at 27,153,180,
275 (James Kendall Hosmer ed., Charles Scribner’s
Sons 1908); Id. at 712 n.77 (Pa. GAZETTE newspaper
articles: criminal shooting from inside a barricaded
home (Apr. 20, 1749); attempted robbery in Lancaster
County, Pa. (Oct. 27, 1763); and attempted robbery in
Bush Hill, Va. with a pistol and blunderbuss (June 27,
1787)); The Proceedings of the Old Bailey, Trial of
Richard Cooper, Apr. 1731, OLD BAILEY PROCEEDINGS
ONLINE, https://www.oldbaileyonline.org (ref. no.
tl7310428-73); Weaver v. Ward, 80 Eng. Rep. 284, 284
(1616). Even the risk of interpersonal confrontation
and violence was well understood, given the occasional
resort to duelling and attention-grabbing that existed
then. See Alison L. LaCroix, To Gain the Whole World
and Lose His Own Soul: Nineteenth-Century American
Dueling as Public Law and Private Code, 33 HOFSTRA
L. REV. 501, 502 (2004) (“[P]eople dueled—in the
United States, as recently as the latter decades of the
nineteenth century.”).
But just as the dangers and risks of arms were
obvious and understood, so were the benefits.
Defensive uses of weapons, both inside and outside the
home, were well known to the Second and Fourteenth

8
Amendments’ Framers and ratifiers.
See, e.g.,
Clayton E. Cramer, Armed America: The
Remarkable Story of How and Why Guns Became
as American as Apple Pie 107 (2006) (citing John
Winthrop, WlNTHROP’S JOURNAL 272-73, 345 (1825))
(recounting two self-defense killings in Massachusetts
Bay Colony, including one with a long gun); The
Proceedings of the Old Bailey, Trial of John Poultney,
July 1682, Old Bailey Proceedings Online,
https://www.oldbaileyonline.org (ref. no. tl682071213) (defendant who had wounded and disarmed the
aggressor in self-defense out in the street was found
not guilty).
Famously, when defending English
soldiers who were accused of the Boston Massacre,
their lawyer (and our second President) John Adams
averred that “[t]he injured party may repel[] force
with force in defence of his person, habitation, or
property.” John Adams, Argument for the Defense: 34 Dec. 1770 in 3 LEGAL PAPERS OF JOHN ADAMS (L.
Kinvin Wroth & Hiller B. Zobel eds., 1965),
https://founders.archives.gov/ documents/Adams/0503-02-0001-0004-0016) (cleaned up).
And the self-defense benefits of the right to bear
arms continues to this day.3 See, e.g., The Heritage
3 See, e.g., Dan Atkinson, Police: Man fires gun to break up
robbery in Franklin Park, News 7 BOSTON (May 9, 2021),
https://whdh.com/news/police-man-fires-gun-to-break-uprobbery-in-franklin-park/ (man attempting to rob woman
thwarted by armed bystander); Addie Haney, Armed citizen
detains suspect after attempted robbery, shooting at Colony
Square Chick-fil-A, police say, 11ALIVE.COM (Mar. 8, 2021, 4:30
PM),
https://www.llalive.com/article/news/crime/attemptedrobbery-shooting-colony-square-chick-fil-a/85-b2e9ab34-68cc-

9
Foundation, Defensive Gun Uses in the U.S.,
HERITAGE.ORG (Apr. 13, 2020, updated July 16, 2021),
https://datavisualizations.heritage.org/firearms/defen
sive-gun-uses-in-the-us/ (data visualization regularly
updated); Travis Fedschun & Bradford Betz, Texas
Church Shooting: Gunman Kills 2,
'Heroic’
Congregants Take Down Shooter, FOX NEWS (Dec. 29,
2019),
https://www.foxnews.com/us/texas>churchshooting-texas-injured-active
(armed
church
congregants thwarting mass shooting in the face of
attacks by gunman who fatally shot two parishioners);
Ryan Laughlin, Shots fly as father, son nearly robbed
at ATM on Albuquerque's West Side, KOB4 (May 17,
2021, 5:15 PM, updated May 18, 2021, 6:39 AM),
https://www.kob.com/
albuquerque-news/shots-fly-asfather-son-nearly-robbed-at-atm-on-albuquerques-

!

489e-9cf6-cc66facc60ef (armed Chick-fil-A patrons detaining
armed robber by using their own guns until police arrived); Dan
Koob, Carjacking Victim Shoots Suspect in Head in Center City,
Philadelphia Police Say, CBS3 Philly (Feb. 16, 2021, 9:15 AM),
https://philadelphia.cbslocal.com/2021/02/16/philadelphia-policeshooting-carjacking-victim-carjacker/ (would-be carjacking
victim defending himself by shooting armed carjacker); Hasan
Karim, Report: Clerk in Springfield fires shots at would-berobber,
Springfield
News-Sun
(Feb.
4,
2021),
https://www.springfieldnewssun.com/news/police-areinvestigating-attempted-robbery-at-springfield-conveniencestore/T6WIKPVUNVGNTHEAA47QFSB4SQ/ (armed employee
of convenience store firing shots at armed robbers who had
demanded that the employee give them money from cash
register); CBS 17 Digital Desk, Man shoots, kills thief during
attempted robbery in Durham, police say, CBS17.COM (Jan. 9,
2021, 10:03 PM), https://www.cbsl7.com/news/local-news/
durham-county-news/man-shoots-kills-thief-during-attemptedrobbery-in-durham-police-say/ (would-be victim fatally shooting
armed robber in front of beauty store).

10
west-side/6111387/ (father deploying pistol to defend
himself and his son from armed robbers who attacked
them as they were making ATM withdrawal); Renatta
Signorini, Teen charged as adult in Jeannette
shooting; 2nd shooter acted in defense, DA says,
TRIBLIVE.COM
(Apr.
23,
2021,
12:04
PM),
https://triblive.com/local/westmoreland/ teen-chargedas-adult-in-jeannette-shooting-2nd-shooter-acted-indefense-da-says/ (mother firing shots, at attacker who
shot her son on the street).4
In short, the Framers and ratifiers of both the
Second and Fourteenth Amendments knew that the
risks and benefits of arms—criminal misuse and
defense against the same—were inextricably
intertwined in the very concept of ‘"bearing” arms.
They weighed those considerations and chose a broad
right to keep and bear arms, rather than broad
discretion to disarm the public, as not only the best
solution, but one to be enshrined as the supreme law
of the land—above any contrary choice made through
mere legislation. They chose to level the playing field
by ensuring that the people would have the means to
4 And sometimes, some of our Nation’s most vulnerable citizens
desperately need the right to bear arms—as a matter of life and
death. See, e.g., Dorian Geiger, Elderly Florida Man Shot
Intruder To Death After Suspect Smashed Through Glass Door
And Began Attacking His Wife, Authorities Say, 0XYGEN.COM
(May 29, 2020, 8:48 AM), https://www.oxygen.com/crimenews/nathan-edwards-fatally-shot-by-elderly-man-during- homeinvasion (title self-explanatory); Ashley Remkus, No charges filed
in deadly shooting in Madison County, AL.COM (May 4, 2020),
https://www.al.com/ news/2020/05/man-shot-to-death-in-madisoncounty.html (woman shooting fiance in self-defense when he
showed up at her home and attacked her in domestic-violence
altercation.

11
defend themselves from those who would improperly
threaten or use force against them. And those
concerns are “as great outside as inside the home.”
Moore v. Madigan, 702 F.3d 933, 941 (7th Cir. 2012);
Wrenn v. District of Columbia, 864 F.3d 650, 657 (D.C.
Cir. 2017) (“After all, the Amendment’s core lawful
purpose is self-defense, and the need for that might
arise beyond as well as within the home.”) (cleaned
up).
Amici strongly agree that the Framers struck the
correct balance in the Second and Fourteenth
Amendments. But whether members of Congress,
state legislators, or any other elected official agrees
with this balance does not matter. What matters is
that the Framers’ balancing was incorporated into the
Constitution and may only be reweighed by amending
the Constitution—not by legislative resistance or
judicial fiat. As sitting members of the United States
Senate, amici will defend Congress’s powers and
prerogatives, but also respect the authority and
supremacy of the Constitution when, as here, it takes
a policy decision from their hands.
Modern legislatures or courts may not upset or chip
away at the constitutional balance between the risks
and benefits of a right of the people to keep and bear
arms—any more than they may permissibly modify
the Constitution’s eligibility requirements for
Members of Congress or the President, or the
bicameralism and presentment procedure for enacting
laws. See Luis v. United States, 136 S. Ct. 1083, 1101
(2016) (Thomas, J., concurring in judgment) (stating
that when “[t]he People, through ratification, have
already weighed the policy tradeoffs that

12
constitutional rights entail” those tradeoffs are “not
for us to reevaluate”); Pub. Citizen v. U.S. Dep’t of
Just., 491 U.S. 440, 486-87 (1989) (Kennedy, J.,
concurring) (“It is improper for this Court to arrogate
to itself the power to adjust a balance settled by the
explicit terms of the Constitution.”). The Framers and
ratifiers of the Second and Fourteenth Amendments
decided to protect public carry precisely because they
wanted to insulate that right from legislative secondguessing.
As applied to this and similar cases, therefore,
neither legislatures nor the courts can validly cite the
intrinsic dangerousness of guns as a justification for
restricting their carriage. Arms are, and have always
been, dangerous to the persons against whom they are
used.5 That danger was never obscure, was very much
part of the reason law-abiding citizens needed arms
for protection from others with arms, and any risks
from the bearing of such tools were deemed inferior to
the benefits.
Any claimed justification that is
premised on the general dangerousness of guns or
other arms thus is invalid on its face.

5 Indeed, due to the state of medical science at the time,
gunshot wounds had a significantly greater likelihood of causing
death at the time of the Framing than they do today. See
generally Roger Saadia & Moshe Schein, Debridement of Gunshot
Wounds: Semantics and Surgery, 24 WORLD J. SURGERY 1146
(2000).

13
II.

Any Limitations on the Scope of the
People’s Right to Keep and Bear Arms
Cannot Override or Reweigh Choices
Already Made by the Constitution.

Turning to the particular law at issue in this case,
petitioners correctly note, see Pet’rs’ Br. 41, 48, that
allowing only a select few members of the public to
bear arms and requiring those few to distinguish
themselves from “the people” in general, turns the
Second Amendment on its head. The constitutional
choice made in 1791 was that the “right” to bear arms
belonged to the undifferentiated people, with
historical exceptions only in cases of dangerousness
due to lack of capacity or demonstrated and dangerous
criminal disposition. See, e.g., Kanter v. Barr, 919
F.3d 437, 451 (7th Cir. 2019) (Barrett, J., dissenting)
(“[The legislative] power [to prevent people from
possessing guns] extends only to people who are
dangerous. Founding-era legislatures did not strip
felons of the right to bear arms simply because of their
status as felons.”). New York’s policy choice that only
those with a severe and distinguishing need for self­
protection are entitled to exercise the right to bear
arms is precisely contrary to the policy choice made in
the Constitution itself to extend the right broadly and
to make it a right, not merely a discretionary
privilege.6
6 A similar principle applies to efforts to restrict broad classes
of “arms.” “A weapon may not be banned unless it is both
dangerous and unusual.” Caetano v. Mass., 577 U.S. 411, 417
(2016) (Alito, J., concurring in judgment). “[W]hen the weapon
belongs to a class of arms commonly used for lawful purposes,” it
does not meet this test. Id. at 418. Indeed, properly understood,

14
Similarly, the Second Circuit’s sweeping deference to
New York’s amorphous and nebulous legislative
judgment that a broad general right to carry would be
detrimental to public safety, see Pet. App. 2, 11-12,
flies squarely in the face of the diametrically opposite
judgment made by the Framers and ratifiers of the
Second and Fourteenth Amendments. The risks of an
armed populace were more than evident in the 1700s
and 1800s when armed crime and violence were
obvious dangers; yet, the choice was made to reify the
population’s right to defend itself rather than be
defenseless. Whether current legislators might have
made a different choice is not only irrelevant, but also
anathema to any proper constitutional analysis.
Policy debates are relevant when drafting and
approving a constitutional amendment, not when
interpreting an amendment that has taken those
policy choices “off the table.” Heller, 554 U.S. at 636.
Each of these choices made by New York and
endorsed by the Second Circuit involved the same
questions confronted by the Framers and ratifiers of
the Second and Fourteenth Amendments but
answered very differently. While New York would
any subclass of dangerous and unusual weapons should be
limited to “dangers” beyond those intrinsic to common weapons
in general. To meet such a limiting definition, a “dangerous”
weapon should be readily capable of inflicting collateral damage
well beyond the natural consequences of a weapon generally.
Fragmentation grenades, nuclear devices, and bazookas might
fall into this category, whereas handguns, pistols, revolvers and
semi-automatic rifles will not. Anything short of this standard
would create a loophole in the Court’s Second Amendment
jurisprudence that is large enough to swallow it altogether. And
that New York may not do.

15
accord the right to carry for self-defense only to a
select few who could identify, to the satisfaction of a
government functionary, a severe need that was
distinct from that of “the people” in general, the
Constitution provides for a right of the people broadly
to choose for themselves how great or small their need
might be and to keep and bear arms accordingly.
And while New York views the public safety risks of
criminal or negligent misuse to outweigh the benefits
of bearing arms for self-defense by the people in
general, the Constitution again makes the opposite
choice and elevates the right of armed self-defense
over the risks that some will misuse such arms. In
both instances, however, it is the policy views of New
York that must yield to the choices embodied in the
Constitution—not the other way around. That New
York would weigh things differently is not a
substantial or important state interest. In fact, it is a
facially invalid interest that conflicts with the choices
made by the Constitution.
CONCLUSION
Firearms policy can be complex, and members of
Congress, like state and local officials, may disagree
vehemently. But elected officials swear to support and
defend the Constitution, and so must respect when the
Framers took a decision out of their hands. The
Second Amendment’s guarantee of the right to keep
and bear arms cannot be second-guessed by legislators
across the country who simply disagree with the
choice the Framers made.
Because the Second Circuit abandoned the
authoritative choices made by the Second and

16

Fourteenth Amendments and instead meekly deferred
to the alternative preferences of New York, this Court
should reverse the decision below.
Respectfully submitted,
Gene C. Schaerr
H. Christopher Bartolomucci
Counsel of Record
Riddhi Dasgupta
Schaerr | Jaffe LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Amici Curiae
JULY 20, 2021

